                                                   `
                                    US Department of Commerce
                                     Office of Inspector General

                                            December 2009

    Program/Operation:       American Recovery and Reinvestment Act of 2009
    Risk Areas:              Accountability, Transparency


More Automated Processing by Commerce Bureaus Would Improve
Recovery Act Reporting (ARR−19779)
On February 17, 2009, the President signed the                 Key Required Department Reporting 
American Recovery and Reinvestment Act of 2009
(Recovery Act) into law. The Department of                 Financial and Activity Reports
Commerce received $7.946 billion in total for the U.S.
Census Bureau, the Economic Development                    The Recovery Act requires each funded
Administration (EDA), the National Institute of            department unit to provide weekly financial and
Standards and Technology (NIST), the National              activity reports on Recovery.gov, detailing
Oceanic and Atmospheric Administration (NOAA),             •    obligations toward future outlays (as well as
the National Telecommunications and Information                 recoveries of current and prior year
Administration (NTIA), and the OIG.                             obligations),
                                                           •    obligations paid (as well as payment refunds
The Recovery Act mandates unprecedented levels of               from current and prior year), and
transparency and accountability and sets out specific      •    a short bullet list of major actions taken and
responsibilities for the OIG to provide oversight of the        actions planned.
Department’s activities under the Act and its spending
of funds appropriated by the Act. Updated guidance         Funding Notification Reports
provided by the Office of Management and Budget
(OMB) on April 3, 2009, spells out, among other            The Act also requires each funded department to
                                                           provide weekly funding notification reports on
requirements, each department’s responsibility to post
                                                           Recovery.gov, detailing
Financial and Activity reports as well as Funding
Notification reports on the public web portal              •    fund amounts publicly announced as
Recovery.gov. Although specific directions and data             available to entities outside the federal
requirements were provided by OMB in this initial               government, and
guidance, during the course of our fieldwork the           •    significant solicitations publicly available
reporting templates were updated to capture additional          (e.g., on FedBizOpps.gov, Grants.gov, or
required information such as expenditures, transfers,           GovLoans.gov).
or reimbursable agreements between federal agencies.
                                                           Source: OMB guidance M-09-15, Updated
                                                           Implementing Guidance for the American
These Recovery.gov reports should present true and         Recovery and Reinvestment Act of 2009 (April
accurate data reflecting the use and impact of             3, 2009)
Recovery Act funds. Reporting of this data began in
March 2009; as of September 30, 2009, Department of
Commerce reporting includes obligations (allocations) of approximately $1.39 billion and outlays
(funding) of $572 million, representing seventeen and seven percent respectively of the Department’s
total supplemental appropriation under the Recovery Act.

Our objective for this evaluation was to assess the adequacy of key information technology (IT) and
operational controls, to determine whether the controls ensure that the Commerce reports posted on
Recovery.gov are complete, accurate, and reliable. The evaluation’s scope included the primary (source)
grant, contract, and/or financial systems for U.S. Census, EDA, NIST, NOAA, and NTIA.
Our “end-to-end” evaluation began after grant or contract award, at the origin point of the data within
each bureau’s primary grant and contract system. It continued through the data transmission to the
financial system of record then ended at the aggregation of all Department of Commerce Recovery Act
data—the weekly Financial and Activity and Funding Notification reports posted on Recovery.gov. We
also back tested the reporting, beginning at the weekly aggregated Recovery.gov Financial and Activity
reports and ending at the financial system of record, the Commerce Business System (CBS), from which
all Recovery Act reporting generates. The evaluation was conducted in five major steps, as depicted
below in figure 1. For further detail on each step’s rationale and outcome, see table 1.

Generally, the 11 Commerce systems we reviewed, which included both source and supporting systems,
had adequate data input/edit controls. However, the lack of automated data transmission or interfaces
from the three bureau grant systems to CBS could potentially lead to errors. Approximately $5.2 billion
(or 65 percent) of Commerce Recovery Act funds will be provided through grants; thus, more robust
controls such as system-to-system interfaces should be employed to reduce the reliance on manual
controls. Further, an automated process would be scalable and more efficient as volumes increase.

As it relates to reporting integrity on Recovery.gov, we noted that while the overall amounts on the
weekly Financial and Activity reports were reasonably accurate, the report gathering, reconciliation, and
dissemination processes are largely manual. With the current low volume of activity, these manual
controls are operating acceptably; however, as volumes increase the process may not be sustainable.

The Funding Notification reports were difficult to reconcile without the assistance of the Department’s
Office of Acquisition Management (OAM). The data is cumulative; therefore, tracing back to a specific
announcement at a specific point in time is problematic. Further, the data is reported by program or state,
which adds another level of difficulty in reconciling it back to its origin point. As the data provided on the
web portal is required to be transparent, we suggest that OAM maintain sufficient detailed internal
records to address any concerns or questions that may arise related to the origin and/or traceability of the
data. 

Figure 1. Evaluation Approach




Commerce OIG                                          2                                          ARR-19779
Table 1. Evaluation Steps, Approaches, and Outcomes

         Evaluation               Evaluation
Step     Approach                 Outcome
Step 1   Conduct key         Our interviews found that bureaus have one or more source systems that enable
         staff interviews;   grant, contract, and payroll processing, which are the primary means by which funds
         identify source     are expended. Other participating or subordinate systems provide data or data
         systems             elements that fulfill procurement or other governmental requirements associated
                             with grant and contract processing. As part of our evaluation we identified four
                             source systems, six supporting/participating systems, and one financial system.
Step 2   Assess data         Our assessment of data input/edit controls included a review of controls designed to
         input/edit          prevent and/or detect data input errors/omissions. Commerce bureaus have
         controls; gather    adequately configured various data edit controls (e.g., required fields, defined
         evidence            character and field length, and other required input based on business rules) in the
                             11 source and key supporting/participating systems identified in step 1.
Step 3   Assess data         Our assessment of data transmission controls included a review of controls designed
         transmission/       to prevent and/or detect incomplete or corrupt data transfers/interfaces. Commerce
         interface           bureaus only use automation when transmitting contract and labor data to the
         controls            financial system of record, CBS. Bureaus manually key grant data into the CBS (see
                             finding 1). Two major interfaces for contract and labor data, through the use of
                             system utilities and/or exception reporting, effectively identify incomplete or corrupt
                             transferred data (e.g., exception queues, header and trailer records counts, total
                             records counts, and transferred amounts).
Step 4   Assess report       Our assessment included a review of the report aggregation, reconciliation and final
         aggregation and     reporting processes. The processes are mostly manual. The obligation and outlay
         reconciliation      data is extracted by the five bureaus using an automated script executed against
         process             CBS. Manual reviews and approvals of this data are completed prior to copying and
                             pasting the data into spreadsheets and emailing the information to the Commerce
                             Recovery Act Implementation Office. Once received, the Implementation Office
                             performs data reviews and reasonableness checks, obtains final individual bureau
                             approvals, then copies and pastes all data into a consolidated weekly Commerce
                             Financial and Activity Report spreadsheet. This spreadsheet is emailed to
                             Recovery.gov for posting at the web site. The Funding Notification report final
                             aggregation process is also manual. An aggregated Commerce report is provided to
                             the Commerce Recovery Act Office by OAM, who performs specific data
                             verifications. Their verifications include determining whether the daily submissions
                             are qualifying actions and whether the actions have been posted on FedBizOps,
                             Federal Procurement Data System-Next Generation, Grants.gov or the Federal
                             Register. After verification, a consolidated Commerce report is provided to the
                             Department Chief Financial Officer’s office.
Step 5   Recreate,           Our integrity testing of the Financial and Activity reports included selecting a
         reconcile, and      sample of eight consolidated Commerce reports from the Recovery.gov website
         test integrity of   between May and August 2009. We obtained the corresponding individual bureau
         historical          reports from the Commerce Recovery Act Implementation Office and the bureaus
         reports             and requested that the bureaus re-run the reports for the days we selected. We then
                             completed reconciliations of all data between the reports back to the source systems
                             and/or CBS.

                             We also tested a sample of Funding Notification reports from the same eight days
                             and reconciled them to their systems of origin. 

                             Overall, there was integrity in the Financial and Activity Reports; however, there
                             were some minor errors due to the manual nature of the process (see finding 2).




Commerce OIG                                              3                                              ARR-19779
Finding 1 – System-to-System Interfaces are Needed to Improve Recovery Act
Grants Processing, Especially as Volume Increases

The three Commerce bureaus (NOAA, NIST, and EDA) that service Recovery Act grants use three
separate systems to maintain detailed grant data. Information from these grant systems is reviewed by
bureau staff and verified against awards lists, e-mails, or other supporting documentation to ensure grant
obligations are accurately captured. Once the grant data is verified for accuracy, the obligation
information is manually entered into CBS. When input is complete, the accounting staff manually
compares the supporting documentation to the CBS batch total for accuracy. We noted that the current
process is accurately capturing grant activity, but it is inefficient and error prone given the human
interaction required for manual data input. As grant volumes increase, this manual input and the
associated manual validations may not be sustainable.

Recommendation

We recommend that NOAA, NIST, and EDA CFOs work with grants management staff to develop
system-to-system interfaces between the three bureaus’ systems and CBS. These interfaces would process
grant activity more efficiently and ensure source systems reconcile to the financial system of record.
Manual reconciliations can then supplement or provide a secondary level of control.


Finding 2 – Additional Automation is Needed in the Financial and Activity
Reporting Process to Reduce the Risk of Erroneous Reporting

To assess the effectiveness of data edit and transmissions controls we directed bureaus to recreate
Financial and Activity reports based on our judgmental sample of eight weekly reports from May through
August 2009, which represented approximately 26 percent of the reports issued at that time. We then
conducted testing to identify variances and other data anomalies within the reports. Our testing
encompassed the steps noted in figure 2.

Figure 2. Evaluation Approach


                                     Recovery.Gov historical 
      Original bureau                consolidated Financial                Re‐run bureau 
   Financial and Activity             and Activity Reports              Financial and Activity 
          Reports                                                             Reports
                                             Reconcile to 
                                              Commerce 
                                          historical Financial 
           Reconcile to                   and Activity Report                Reconcile to bureau 
         Commerce original                                                        original


                                           Reconcile to  the 
            Reconcile to                   bureau historical 
                                                report                         Reconcile to 
           consolidated 
                                                                             Commerce original
           Recovery.Gov




Commerce OIG                                         4                                         ARR-19779
Out of a sample of 40 reports (8 dates from each of the 5 bureaus), 11 (approximately 28 percent)
contained some type of nonmaterial discrepancy. Although these discrepancies were not financially
significant, and bureaus were generally able to provide explanations for the discrepancies, there were
several reporting inconsistencies, largely due to the manual nature of the process.

The types of discrepancies varied and did not appear to occur in any specific pattern such that we could
attribute them to a particular aspect of the process. Some variances included:

    •	 obligations and outlays re-classified from one category on the report to another (e.g., an amount
       on the original report listed in the “Other” category appeared in the “Contract” category when the
       report re-ran for testing),

    •	 run dates of original reports were moved forward or backward from the normal agreed-
       upon run date, causing exclusions or additional transactions to appear on the rerun
       reports, and

    •	 other discrepancies due to incorrect manual data input or circumstances unique to a particular
       event around the original reporting date (e.g., data warehouse refresh).

In addition, reports could not be recreated for one of the bureaus due to a technical limitation of the
scripting tool being used. However, we were able to validate their amounts by reviewing historical CBS
reports and e-mail notifications from the time period.

The Commerce Recovery Act Implementation Office receives Financial and Activity report data from
bureaus via spreadsheet and creates a consolidated Department report that is submitted for posting on
Recovery.gov. In the process of creating the consolidated report and prior to the report’s transmission to
Recovery.gov, there are various levels of manual review, reconciliation, and approval; however,
nonmaterial errors have still occurred—due largely to the manual nature of the overall process. Data
passes through several individuals and groups, making it vulnerable to intentional or unintentional
modification.

Recommendation

We recommend that the Commerce Recovery Act Implementation Office evaluate ways to further
automate report generation and ensure that consistent processes are used across bureaus. In addition,
Commerce may want to consider implementation of a central data repository from which it can generate
all Recovery Act data. A central repository could serve other purposes even after full implementation of
the Recovery Act.


Additional Funding Notification Report Comment

We selected a sample of eight Funding Notification reports from Recovery.gov using the same dates
(May–August 2009) as were selected for our the Financial and Activity Reports. We reconciled these
back to their original data sources to assess consistency in reporting. The sample dates selected for the
above testing were May 8, May 29, June 12, June 19, July 10, July 24, August 7, and August 21, 2009.

Overall, the data collection and review process appears adequate and we were able to reconcile the data
back to their systems of origin without exception for the dates selected.




Commerce OIG                                         5	                                         ARR-19779
However, reconciling the Funding Notifications back to their systems of origin (e.g., FedBizOps.gov,
Grants.gov, and the Federal Procurement System) from Recovery.gov was difficult for several reasons.
Based on OMB guidance the reports are cumulative, which makes research by date difficult. Data are
listed by program or state, with no additional references to direct readers to more information about the
grant and contracts. Finally, it should be noted that while we were able to reconcile the Funding
Notifications back to their systems of record, based on how the information is reported we were unable to
verify whether the information was submitted to the Department within the exact specified timeframe—
“sent in no less than every 48 hours after the notices are made available publicly”—directed by OMB
guidance.

As traceability proved difficult without the assistance of OAM staff, we emphasize that OAM should
continue to maintain complete internal documentation related to the notification reports, especially as
activity increases and in the event there are follow-up questions on the data reported.




BACKGROUND

The American Recovery and Reinvestment Act of 2009 provided $16 million for Office of Inspector General audits and oversight of
Commerce’s Recovery Act activities. Under the Recovery Act, inspectors general are expected to be proactive and focus on prevention.

Our work was performed in accordance with the Quality Standards for Inspections (rev. January 2005) issued by the President’s Council
on Integrity and Efficiency and under authority of the IG Act of 1978, as amended, and Department Organization Order 10-13 (dated
August 31, 2006).




Commerce OIG                                                      6                                                   ARR-19779
